Vm
TN

2311 Douglas Street

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 ‘Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-438
CLEMENTE AVELINO PEREIDA,
Petitioner,
Vv.

WILLIAM P. BARR,
Attorney General of the United States,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF IMMIGRANT
DEFENSE PROJECT, AMERICAN IMMIGRATION LAWYERS ASSOCIATION, THE
NATIONAL IMMIGRANT JUSTICE CENTER, IMMIGRANT LEGAL RESOURCE CENTER,
AND NATIONAL IMMIGRATION PROJECT OF THE NATIONAL LAWYERS GUILD AS
AMICI CURIAE IN SUPPORT OF PETITIONER in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 7865 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of February, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary 5 : Zz. Chk,
State of Nebraska * A
My Commission Expires Nov 24, 2020 «

Notary Public Affiant 39261

 

 
